CERTIFICATE OF COMPLIANCE
No.
JonD. Adams
Petitioner
v.
Commissioner of Internal Revenue
Respondent
As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains 2,680
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on October 26, 2020.
/s/ James G. McGee, Jr.
James G. McGee, Jr.
COUNSEL FOR APPELLANT

